 

GEORGIA DEPARTMENT or Law Writer’s Direct Dial:
40 Capitol Square SW 404-458-3619
Atlanta, Georgia 30334-1300 Www law.ga-gov
(404) 458-3600

CHRISTOPHER M. CARR
ATTORNEY GENERAL

September 23, 2021

Honorable Scott Harris

Clerk of the Court

Supreme Court of the United States
1 First Street, N.E.

Washington, D.C. 20543

RE: Michael Wade Nance v. Timothy C. Ward, Commissioner, No. 21-439 _
Dear Mr. Harris:

Respondent Warden’s counsel respectfully requests a 30-day extension of time for filing his brief
in opposition to the petition for writ of certiorari. Respondent’s brief is currently due on October
22, 2021, and this request, if granted, would extend Respondent’s deadline to November 22,
2021.

Undersigned counsel is currently operating under numerous competing deadlines in various other
post-conviction capital cases. Most notably, undersigned counsel has been working on an
appellee’s brief in the Eleventh Circuit Court of Appeals in Jones v. Warden, Case No. 20-
12587, which is due on October 13, 2021. Additionally, undersigned counsel has to file
responsive pleadings in the United States District Court of Northern Georgia in Tate v. Warden,
Case No. 4:12-CV-19 on October 18, 2021. Undersigned counsel also has to respond to a 422-
page state habeas corpus merits brief in the Superior Court of Butts County, Georgia in Rice v.
Warden, Case No. 14-HC-10 by November 8, 2021. Undersigned counsel is also operating other
deadlines in non-capital post-conviction cases over the next 4-7 weeks. Finally, undersigned
counsel will be away from the office from September 27-29, 2021, on vacation.

The additional time requested is necessary for Respondent’s counsel to prepare and finalize
Respondent’s brief and to respond appropriately to the issues raised in this capital case. I have
spoken to Mr. Nance’s counsel, Matthew Hellman, and he does not oppose this request.
Sincerely,

s/Clint C. Malcolm

Clint C. Malcolm
Assistant Attorney General

cc: Matthew Hellman
